                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 112090062                                                                      Page 1 of 1



         This case was opened from an allegation that the Subject 1 was serving as a Principal Investigator
         for an award2 to a grantee3 but was not an employee there.

         We interviewed the Program Officer, who was aware of the relationship between the Subject and
         the grantee, and had no concerns about the administration of the award.

         This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
